No. 19-783
EE

IN THE

Supreme Court of the United States

 

NATHAN VAN BUREN,
Petitioner,

Vv.

UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit

REPLY BRIEF OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,616 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 18, 2020.

 

Colin Casey Hog
Wilson-Epes Printing Co., Inc.
